<html>
<title> - LEGISLATIVE HEARING ON S. 2602, THE UTILIZING SIGNIFICANT EMISSIONS WITH INNOVATIVE TECHNOLOGIES ACT, OR USE IT ACT</title>
<body><pre>[Senate Hearing 115-456]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 115-456

  LEGISLATIVE HEARING ON S. 2602, THE UTILIZING SIGNIFICANT EMISSIONS 
            WITH INNOVATIVE TECHNOLOGIES ACT, OR USE IT ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             APRIL 11, 2018

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








        Available via the World Wide Web: http://www.govinfo.gov


























                                                        S. Hrg. 115-456

  LEGISLATIVE HEARING ON S. 2602, THE UTILIZING SIGNIFICANT EMISSIONS 
            WITH INNOVATIVE TECHNOLOGIES ACT, OR USE IT ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 11, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










        Available via the World Wide Web: http://www.govinfo.gov 
        

                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
34-174PDF                WASHINGTON : 2019                 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 11, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     6
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     8
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     8
Duckworth, Hon. Tammy, U.S. Senator from the State of Illinois, 
  prepared statement.............................................   108

                               WITNESSES

Heitkamp, Hon. Heidi, U.S. Senator from the State of North Dakota    10
Northam, Mark A., Executive Director, School of Energy Resources, 
  University of Wyoming..........................................    17
    Prepared statement...........................................    20
    Response to an additional question from Senator Barrasso.....    29
Friedmann, S. Julio, Chief Executive Officer, Carbon Wrangler, 
  LLC............................................................    30
    Prepared statement...........................................    32
    Response to an additional question from Senator Barrasso.....    39
    Responses to additional questions from:
        Senator Carper...........................................    39
        Senator Duckworth........................................    43
        Senator Whitehouse.......................................    45
Deich, Noah, Executive Director, Center for Carbon Removal.......    51
    Prepared statement...........................................    53
    Responses to additional questions from:
        Senator Carper...........................................    60
        Senator Duckworth........................................    62
        Senator Whitehouse.......................................    64
Jiao, Feng, Associate Professor of Chemical & Biomolecular 
  Engineering and Associate Director for the Center for Catalytic 
  Science & Technology, University of Delaware...................    69
    Prepared statement...........................................    71
    Responses to additional questions from Senator Carper........    91

                          ADDITIONAL MATERIAL

Bipartisan Group of Senators Introduce Bill to Promote Carbon 
  Capture Research and Development, March 22, 2018...............   109
Letters:
    Algae Biomass Organization to Senators Barrasso and Carper, 
      April 10, 2018.............................................   113
    ALLETE to Senators Barrasso and Whitehouse, April 9, 2018....   114
    Arizona State University Ira A. Fulton Schools of Engineering 
      to Senators Barrasso and Carper, April 8, 2018.............   116
    Basin Electric Power Cooperative to Senators Barrasso and 
      Whitehouse, March 22, 2018.................................   118
    Bio-Thermal-Energy, Inc. to Senators Barrasso and Carper, 
      April 9, 2018..............................................   119
    Carbon Capture Coalition to Senators Barrasso and Carper, 
      April 11, 2018.............................................   130
    ClearPath Action to Senators Barrasso and Whitehouse, March 
      22, 2018...................................................   132
    Cloud Peak Energy to Senator Barrasso, April 10, 2018........   133
    CO<INF>2</INF> Sciences, Inc.................................   134
    Colorado School of Mines to Senators Barrasso and Carper, 
      April 17, 2018.............................................   135
    Energy & Environmental Research Center to Senators Barrasso 
      and Whitehouse, April 10, 2018.............................   136
    Global Thermostat to Senators Barrasso and Whitehouse, April 
      5, 2018....................................................   137
    Great River Energy to Senators Barrasso and Whitehouse, April 
      9, 2018....................................................   139
    Lignite Energy Council to Senators Barrasso and Whitehouse, 
      April 10, 2018.............................................   140
    National Mining Association to Senator Barrasso, May 7, 2018.   141
    North Dakota Association of Rural Electric Cooperatives to 
      Senators Barrasso and Whitehouse, April 5, 2018............   142
    Third Way to Senators Barrasso and Carper, April 10, 2018....   143
    Matt Mead, Governor of Wyoming, et al. to Representative Ryan 
      et al. and Senator McConnell et al., February 6, 2018......   144
    Matthew H. Mead, Governor of Wyoming, to Hon. Steve Bullock, 
      Governor of Montana, et al., February 16, 2018.............   146
    Matthew H. Mead, Governor of Wyoming, to Senators Barrasso 
      and Whitehouse, April 10, 2018.............................   149
    Western Governors' Association to Senators Hatch and Wyden, 
      August 3, 2017.............................................   150
    Western Governors' Association to Senators Barrasso and 
      Carper, April 24, 2018.....................................   155
Quadrennial Energy Review: Energy Transmission, Storage, and 
  Distribution Infrastructure, April 2015........................   156
Global Roadmap for Implementing CO<INF>2</INF> Utilization, 
  CO<INF>2</INF> Sciences and The Global CO<INF>2</INF> 
  Initiative, November 2016......................................   162
21st Century Energy Infrastructure: Policy Recommendations for 
  Development of American CO<INF>2</INF> Pipeline Networks. White 
  paper prepared by the State CO<INF>2</INF>-EOR Deployment Work 
  Group, February 2017...........................................   224
Siting Carbon Dioxide Pipelines. Tara K. Righetti, Oil and Gas, 
  Natural Resources, and Energy Journal, November 2017...........   251
Ten Teams From Five Countries Advance To Finals Of $20M NRG COSIA 
  Carbon XPRIZE, Finalists Reimagine Carbon and Will Demonstrate 
  CO<INF>2</INF> Conversion Tech Under Real-World Conditions, 
  April 9, 2018..................................................   321
Amy's notebook: one bipartisan thing.............................   325 
 
  LEGISLATIVE HEARING ON S. 2602, THE UTILIZING SIGNIFICANT EMISSIONS 
            WITH INNOVATIVE TECHNOLOGIES ACT, OR USE IT ACT

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:21 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Fischer, Ernst, Sullivan, Cardin, Whitehouse, Gillibrand, 
Booker, Markey, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we are here to discuss promising bipartisan 
legislation recently introduced by the Chairman, along with 
Senators Whitehouse, Capito, and Heitkamp.
    The bill is called the Utilizing Significant Emissions with 
Innovative Technologies Act, or simply the USE IT Act. It is 
called the USE IT Act because the bill would encourage the 
commercial use of manmade carbon dioxide emissions. The bill 
supports the use of carbon capture technology and innovative 
research at sites with the captured CO<INF>2</INF>. The 
legislation also facilitates permitting for carbon dioxide 
pipelines in order to move the carbon dioxide from where it is 
captured to where it is either stored or used.
    The USE IT Act complements and builds off of recently 
passed legislation that was introduced by the same bipartisan 
group of Senators. That one was called the FUTURE Act, the 
Furthering Carbon Capture, Utilization, Technology, Underground 
Storage, and Reduced Emissions Act, simply, the FUTURE Act. It 
expanded and extended the 45Q tax credit for carbon capture. 
Carbon capture can and does work.
    The Committee heard testimony from David Greeson of NRG 
Energy last year. Their Petra Nova project outside of Houston 
is the largest carbon capture project of its kind in the world. 
That project has now captured and used more than a million tons 
of carbon. The FUTURE Act is going to spur investment in more 
additional carbon capture projects like Petra Nova.
    In developing both the FUTURE Act and the USE IT Act, 
Senators on both sides of the aisle have found areas of common 
ground. I appreciate Senator Whitehouse's leadership as we work 
together to develop the USE IT Act. I am going to continue to 
work with Senator Whitehouse to ensure any amendments to this 
bill are built on bipartisan consensus as we work to move it 
through the Committee and ultimately to the President's desk.
    In my home State of Wyoming, we are blessed with an 
abundant supply of coal, oil, uranium, and natural gas. These 
tremendous resources fuel our State economy and employ people 
in well paying jobs; they provide affordable and reliable power 
to our Nation.
    Coal, oil, uranium, and natural gas also make the United 
States more secure by making us less dependent on energy 
resources from other countries. We cannot afford to leave our 
resources stranded in the ground. That is why America must lead 
through innovation--and not regulation--as we continue to 
reduce emissions. This is the approach we take in the USE IT 
Act.
    The bill will also allow coal plants in my home State of 
Wyoming to capture their CO<INF>2</INF> emissions and turn them 
into valuable products. It will encourage the use and permanent 
sequestration of CO<INF>2</INF>. Greater use of these 
technologies, coupled with research support from the EPA, could 
lead to additional innovative technologies that will use 
CO<INF>2</INF> emissions.
    This is a market driven approach. We are encouraging the 
development of markets for CO<INF>2</INF>. All of these actions 
will result in less carbon dioxide in the atmosphere.
    The USE IT Act is important for Wyoming. The Sheridan Press 
recently published a front page article titled Senate Bill 
Could Stimulate State Carbon Capture Projects. In the article 
Jason Begger, who is the Executive Director of the Wyoming 
Infrastructure Authority, who has testified before this 
Committee, endorsed the USE IT Act. He explained how the 
legislation will allow Wyoming to diversify the use of its 
energy resources, and I ask that this article be entered into 
the record.
    Without objection.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Barrasso. The USE IT Act has two sections, one that 
promotes research and the other to facilitate development of 
carbon capture products and CO<INF>2</INF> pipelines.
    The first title of the bill directs the EPA to conduct 
carbon dioxide research activities under existing authority in 
the Clean Air Act. Specifically, the EPA would provide 
technical and financial assistance to carbon dioxide 
utilization projects that use CO<INF>2</INF> generated from 
industrial facilities. EPA would also administer a competitive 
prize program to promote another innovative technology: direct 
air capture.
    The second title is all about creating a favorable 
environment for the permitting and development of the 
infrastructure needed to make carbon capture successful. In 
this title, the bill clarifies that carbon capture utilization 
and sequestration projects, as well as carbon dioxide 
pipelines, should be permitted in a timely and coordinated 
manner.
    The bill will send an important signal to project 
developers that the Federal Government is committed to be a 
partner in the project development and in exploring new 
commercial uses for carbon dioxide.
    The bill also establishes a process for stakeholders to 
work together to identify and develop models that facilitate 
the permitting and development of carbon capture projects and 
carbon dioxide pipelines.
    So, I look forward to working with members of the Committee 
to advance this critical legislation.
    I will now turn to the Ranking Member, my friend, Tom 
Carper, for his opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Delighted to see our witness, our first witness, our lead-
off hitter, who is actually quite a good hitter, as I recall, 
and to welcome our other witnesses who will follow Senator 
Heitkamp.
    Mr. Chairman, I want to thank you for this hearing today, 
and I want to thank you, Senator Whitehouse, and others who 
have worked, along with our staffs, to craft this legislation 
for our consideration. It is really a pleasure to participate 
in a hearing that focuses on solutions to climate change, as 
opposed to a hearing that focuses and fuels the debate over the 
science of climate change.
    Since the founding of our Union, our country has faced 
daunting challenges that at first seem impossible to overcome. 
With support from Federal, State, and local governments, 
Americans have found ways to innovate and craft solutions to 
overcome these challenges.
    I believe the same can and must be true when it comes to 
addressing climate change. Smart policies at the Federal, 
State, and local levels have spurred a clean energy revolution 
in this country, and we have achieved real results. $507 
billion have been invested in the clean energy sector over the 
past 10 years, and our country is the leader in exporting clean 
air and clean energy technology----a leader.
    Thanks in part to these investments in clean energy and 
energy efficiency, American consumers are paying less for 
energy today, not more; jobs--some 3 million of them, in fact--
have been created here at home to produce these clean energy 
technologies.
    However, if our country, and quite frankly, all countries, 
are going to address the challenge of climate change, we must 
do more to spur clean energy technology. That is why I have 
long believed that the Federal Government should foster and 
support the deployment of carbon capture, sequestration, and 
utilization technologies, and I have been, as a Congressman, as 
a Governor, and as a United States Senator, a strong advocate 
of doing just that.
    Wide deployment of carbon capture, sequestration, and 
utilization could significantly reduce climate pollution 
emissions in this country and abroad, and could be a real win-
win for coal communities, for manufacturing, and for our 
climate.
    But just as with other coal related technologies, the 
barriers to carbon capture, utilization, and storage are 
largely financial--largely financial, not environmental. The 
reluctance of investors to invest in CCUS is not because we 
require these operations to meet other basic and important 
environmental requirements. Instead, investors have shied away 
from expensive, large scale carbon capture projects because 
energy prices are low. This country has struggled to put a 
price on carbon usage, and as a result, we are well on our way 
to ceding the economic opportunities of carbon capture 
technology to other countries, like China, which only hurt the 
very coal communities that our President says he wants to help. 
And a couple of us actually grew up in those coal communities.
    American ingenuity has always been our best tool in meeting 
the challenges our country has faced, so it just makes sense 
that we would harness the same innovative spirit in order to 
find smart ways to spur CCUS in America.
    Today we will hear, beginning with our lead-off witness, 
Senator Heitkamp, much about such innovative efforts occurring 
at the University of Delaware that, if successful, would make 
carbon capture a no-brainer--no-brainer--for businesses in the 
future.
    This legislation before us, as the Chairman has said, is 
intended to spur more innovation in projects in CCUS like the 
one at the University of Delaware that we will hear about in 
just a moment. So, for that, I applaud the underlying effort 
and the Chairman and co-sponsors for your work.
    Having said that, however, I do have one concern that I 
want to mention with the legislation which explains why I am 
not yet a co-sponsor. For one, I am concerned that the 
legislation may be handing over a program to an already 
burdened EPA to oversee what may be better suited for the 
Department of Energy to administer.
    I am also a bit weary of discussing any additional 
streamlining provisions for this technology, when in the past 
two transportation bills we have established streamlining 
provisions to help these types of projects move through the 
permitting process more easily. I believe that before we 
consider a lot more streamlining measures, we ought to 
prioritize implementing the ones we have already put in place. 
Most importantly, I want to make sure that this effort is not 
connected with other efforts that may weaken the Clean Air Act.
    In closing, let me reiterate that we don't need to scrap 
our environmental standards to provide a nurturing environment 
for American innovation and economic investment in carbon 
sequestration technologies; they are not mutually exclusive.
    With that, we look forward to hearing from our lead-off 
witness and our other witnesses. Thank you all for being here 
with us today.
    Thank you.
    And for your leadership, thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Capito.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman and Ranking Member. 
I am glad to see Senator Heitkamp here and Senator Whitehouse.
    Senator Barrasso and I are the major authors of this bill. 
I said it is good to have the team back because we had a major 
victory at the end of last year with everybody's help; we 
passed the FUTURE Act, which Senator Barrasso referenced in his 
opening statement, which reauthorized and really improved the 
45Q tax credit for CCUS. It was a huge milestone for all of us 
because we had a bipartisan group of Senators, a diverse 
coalition of coal and oil industry, environmental groups, and 
the labor organizations that were supporting us, so we are now 
looking to the second phase and making sure that this 
technology can make it out into the field.
    Beyond the economics, we need to have adequate R&D into 
CCUS, some of that is being done at Nettle in Morgantown and at 
our universities, and that our regulatory structures aren't so 
onerous so as to prevent CCUS projects and carbon dioxide 
pipelines from being permitted.
    I think there is an issue that we try to address in here, 
and that is on the carbon dioxide portion of the pipelining, 
which brings a different flavor to pipeline regulating than we 
have seen in the past. So, we are in the process of bringing 
together another coalition of stakeholders like the one that 
supported the FUTURE Act, and today's hearing is part of that 
process.
    So, with all of us pulling together, I hope we can get 
another pro-CCUS bill. It is a win-win; it is an energy bill; 
it is a carbon emission reduction bill; and it will benefit all 
of us economically.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman.
    It is good to be working on this bill again and trying to 
advance the cause of carbon capture, utilization, and 
sequestration. Obviously, if you are going to capture and 
utilize carbon dioxide, it is helpful to have a way to 
distribute it to the ultimate users, and that is where the 
pipeline piece comes in; it is a very sensible adjunct to the 
bill that we got passed.
    I would like to make two points. One is that pretty much 
everybody on the Republican side of the aisle who has thought 
the climate change problem through to a solution, whether it is 
former Senators, former Representatives, former Treasury 
secretaries, former EPA administrators, former presidential 
economic advisors, they all more or less come to the same 
place, which is that there needs to be a market price on carbon 
dioxide emissions.
    I think we agree with that. There is usually the view that 
it ought to be revenue-neutral, it shouldn't be revenues used 
to build more government, we don't need to have that fight on 
this issue; and it needs to be border adjustable so a cement 
plant in Texas doesn't face unfair competition from the same 
cement plant across the border in Mexico.
    All of that is very doable, but it is going to take a 
little bit more leadership from our friends in the fossil fuel 
industry before we get there.
    I want to make it clear that, from my experience here in 
the Senate, when our oil majors say they understand that 
climate change is real, they understand that their product is 
causing it, and they support a price on carbon emissions, that 
that is not a truthful statement. At the end of the day, their 
entire political and electioneering apparatus remains fully 
dedicated to making sure that there is no price on carbon.
    How they are going to explain to the future and to their 
shareholders why they say one thing publicly and direct their 
political and electioneering efforts in a completely different 
direction I leave up to them, but I am here as witness to the 
fact that there is zero political and electioneering support 
from those industries for the serious price on carbon they 
claim to support. So, in the meantime, we can do things to move 
things forward, and this is one of those ways to move things 
forward.
    The second point I would like to make is that we need to be 
very careful about making sure that when we are talking about 
regulatory efficiencies, we are really talking about regulatory 
efficiencies. When that becomes a code for undoing 
environmental protections, I am out.
    We have seen regulatory efficiencies pay off in big ways. 
Rhode Island has steel in the water and electrons flowing into 
the grid from the first offshore wind turbines in the United 
States because we designed a better regulatory process than 
Massachusetts did. Cape Wind in Massachusetts died over more 
than a decade of regulatory process. We did it faster, smarter, 
and right in Rhode Island, and the payoff is we got the first 
offshore wind in the country.
    So, there in fact are ways to make regulation achieve its 
purpose in the most efficient way. We have to guard against 
that being a screen for undoing the underlying protections, and 
that is a principle that I am going to bring into this bill and 
into all of my oversight efforts on this Committee.
    I appreciate the opportunity I have had to work with so 
many friends on this Committee on this and on the previous 
bill, and I am delighted to see my distinguished Dakotan 
colleague here.
    Senator Barrasso. Thank you very much, Senator Whitehouse.
    Now to the distinguished Dakotan colleague, Senator 
Heitkamp.
    Welcome to the Committee. Thank you for joining us and for 
your support of the bill.

               STATEMENT OF HON. HEIDI HEITKAMP, 
          U.S. SENATOR FROM THE STATE OF NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman, and hello to all 
my friends on the Environment and Public Works Committee.
    I think Sheldon occasionally says that because he can't 
remember if it is North or South Dakota.
    [Laughter.]
    Senator Whitehouse. It is not East or West?
    [Laughter.]
    Senator Heitkamp. Good morning, Chairman Barrasso.
    Senator Barrasso: If it is a road or if it is an island, 
yes.
    [Laughter.]
    Senator Heitkamp. Or soon to be.
    Good morning, Chairman Barrasso.
    Senator Whitehouse. No fair, all you westerners ganging up 
on me.
    [Laughter.]
    Senator Heitkamp. I am going to start over now.
    [Laughter.]
    Senator Heitkamp. Good morning, Chairman Barrasso, Ranking 
Member Carper, and all of my friends and colleagues on this 
Committee. I want to thank you so much for the invitation to 
testify on this USE IT Act, Utilizing Significant Emissions 
with Innovative Technologies Act.
    I just want to make a point that for generation after 
generation we have seen CO<INF>2</INF> as a pollutant, and the 
efforts that this Committee, in a very bipartisan way and our 
group of four have really tried to turn the page and start 
looking at CO<INF>2</INF> as an opportunity and as a legitimate 
and valuable by-product.
    So, Senator Barrasso, I want to thank you so much, and your 
staff, for your incredible work on this and making it a 
priority of your office, and inviting me and allowing me to be 
part of that work.
    Senators Whitehouse and Capito, your continued work and 
partnership in these efforts on carbon capture, utilization, 
and storage initiatives, that leadership continues beyond the 
work that we did on our FUTURE Act, and we know that these new 
policies can create an environment in which innovation and 
implementation of CCUS technologies and processes are allowed 
to thrive and grow.
    Much has already been said about the FUTURE Act. It was one 
cog in that wheel, and we know that we need to make sure that 
we can commercialize the work that is being done that we can 
continue to drive the technology in ways that will amaze and 
astonish people out in the country.
    When we talk about the challenges of how to implement the 
policies that would encourage CCUS in this country, it was 
clear that closing the financing gap through the FUTURE Act was 
critical, but merely doing that one piece wasn't enough.
    It was before this very same Committee last year where the 
FUTURE Act was being discussed during a hearing on expanding 
and accelerating the deployment and use of CCUS, and questions 
were posed to the witnesses about what additional challenges 
existed and what further policies we needed to promote CCUS. 
The response was clear: there needed to be a comprehensive 
approach that looked across the entire Federal and State 
regulatory policies to better coordinate and establish an 
environment where CCUS projects are not burdened by long lead 
times or duplicative and unnecessary regulations, and that we 
needed to build out the infrastructure necessary to move the 
CO<INF>2</INF> from the source to those areas that are best 
able to utilize it as a by-product.
    As a result of that hearing, Chairman Barrasso took the 
lead on addressing some of those very concerns, and I happily 
joined him and my colleagues, Senators Whitehouse and Capito, 
in that effort.
    The USE IT Act directs EPA and CEQ to prioritize and take 
lead roles at the Federal level in supporting CCUS and direct 
air capture research, and establishing guidance for project 
developers and operators that will allow better coordination 
and facilitation of these projects. It also clarified that 
existing policies facilitating the build out of infrastructure 
projects are applicable to CCUS projects and CO<INF>2</INF> 
pipelines.
    While I will admit I am biased when it comes to advancing 
this bill and these policies, North Dakota is at the forefront 
of developing CCUS projects if the right conditions are met. As 
of yesterday, we are the first State in the country that has 
been authorized by EPA to regulate Class 5 injection wells. We 
have three CCUS projects at various stages of planning. Red 
Trail Energy in Richardton is looking to capture and store 
CO<INF>2</INF> from an ethanol plant. Project Tundra is looking 
to add carbon capture equipment to the back end of an existing 
coal fired power plant in the Allam cycle project that could be 
fueled by synthetic gas produced at our great lignite coal 
resource in our State. It is really quite amazing.
    All of these projects are not what we called in the old 
days vaporware. They are real, they are being developed every 
day, they are being invested in by the State and by private 
entities in the State of North Dakota, so we are ready to go. 
We are ready to go if the conditions are right.
    To that point, I would like to submit several records or 
several letters in support of the USE IT Act. I want to make 
this point because I think sometimes we talk a lot about saving 
jobs and doing what we can to make sure people stay working. 
These employers represent thousands of jobs in my State, and 
even more jobs if we look at the indirect benefit of this 
value-added industry to my State. So, I would like to submit 
these letters in support.
    Senator Barrasso. Without objection.
    Senator Heitkamp. Thank you.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Heitkamp. The impressive panel of witnesses that 
you have assembled to follow me are in a much better position 
to get further into the details of why this bill addresses some 
of those challenges laid out in the September hearing. What I 
can tell you is that I am certain that these efforts will lead 
to breakthroughs that provide for economic and employment 
benefits to our country and provide long term technological 
solutions that will allow for the continuation of an all of the 
above energy policy, all while addressing climate challenges by 
greatly reducing carbon emissions.
    I want to make one final statement. I think that when we 
are looking back at our legislative careers, and we are 
thinking how did we do, did we just stand in our corners and 
shout across the void and across the divide? Occasionally 
something will come up where we will say we walked across, we 
sat down, we figured it out, and we did something that actually 
made a difference in the U.S. Congress.
    I think this effort is exactly that, and I think all of us 
who have worked on this, especially the four of us who have 
been particularly engaged, will have something to talk about. 
We will have an example of the kind of leadership that we have 
exhibited while we are here, and I think this not only has been 
a wonderful piece of policy, it has been a wonderful example of 
how friends and colleagues can get together to actually move 
important policy for the people of this country.
    So, I proudly join and support all of my co-sponsors, and I 
encourage a quick resolution out of this Committee and hard 
work on the floor of the Senate to get this thing passed in the 
U.S. Senate.
    Thank you, Mr. Chairman, for this opportunity.
    Senator Barrasso. Thank you very much, Senator Heitkamp. 
Glad you could join us today. Appreciate it.
    Senator Heitkamp. Thank you.
    Senator Barrasso. At this time, I would like to call our 
four witnesses to the table.
    We will now hear from our witnesses, and I am pleased to 
introduce Dr. Mark Northam, who is the Director of the 
University of Wyoming's School of Energy Resources. Prior to 
his service at the university, he has had extensive research 
experience in the private sector. Additionally, he has worked 
as a research science consultant in the areas of carbon 
management and technical intelligence at the Research and 
Development Center at Saudi Aramco. Dr. Northam also worked at 
Mobil and ExxonMobil for over 20 years, where he held a variety 
of research operations and managerial positions.
    I want to thank you for your willingness to testify today.
    Additionally to Dr. Northam we have Dr. Julio Friedmann, 
who is the CEO of Carbon Wrangler, LLC.
    It is good to see you again. Welcome back to the Committee. 
We appreciate your insightful testimony at the hearing last 
September on carbon capture, and we look forward to hearing 
your insights today.
    Next is Noah Deich, who is the Executive Director of the 
Center for Carbon Removal; and Dr. Feng Jiao from Senator 
Carper's home State of Delaware.
    Senator Carper, would you like to add any few words of 
introduction?
    Senator Carper. Isn't that a great name, Feng Jiao? It 
means common sense. No, it doesn't really, but it could, 
because this is very much a common sense approach, I think.
    After finishing his post-doctoral research at the Lawrence 
Berkeley National Laboratory, Dr. Jiao joined the faculty at 
the University of Delaware, I think in 2010. Was it 2010?
    Mr. Jiao. Yes, 2010.
    Senator Carper. Chemical & Biomolecular Engineering 
Department. Today he is still at that department at the 
University of Delaware, serves as an Associate Professor. He is 
also the Associate Director for the Center for Catalytic 
Science & Technology. His current research focuses primarily on 
converting carbon dioxide into valuable chemicals.
    Dr. Jiao has published more than 50 articles.
    Is that true?
    Mr. Jiao. Yes, that is true.
    Senator Carper. OK. More than 50 articles in leading 
scientific journals, such as the Journal of American Chemical 
Society, regarding his work in electrochemistry and 
nanomaterials. Just last year he was awarded $1 million by the 
Department of Energy to further his work on carbon capture and 
utilization. In addition, Dr. Jiao started a company called 
CO<INF>2</INF> Energy LLC specializing in carbon capture and 
utilization.
    We welcome you, Dr. Jiao. It is great to see you. Happy 
that the First State is represented on both sides of the dais. 
Thank you.
    Senator Barrasso. I want to remind the witnesses that your 
full testimony will be made part of the record of the official 
hearing today, so we please ask you to keep your statements to 
5 minutes so that we have time for questions. Look forward to 
hearing your testimony.
    Dr. Northam, please begin.

  STATEMENT OF MARK A. NORTHAM, EXECUTIVE DIRECTOR, SCHOOL OF 
            ENERGY RESOURCES, UNIVERSITY OF WYOMING

    Mr. Northam. Thank you.
    Chairman Barrasso, Ranking Member Carper, and members of 
the Senate Committee on Environment and Public Works, thank you 
for inviting me to testify on the Utilizing Significant 
Emissions with Innovative Technologies Act, or USE IT Act.
    Senator Barrasso, thank you for the introduction. You took 
away the first 10 minutes of my testimony.
    For those of you who are here to see the other Mark, I 
think he was here today, and he is over in the House today, so 
sorry if you are disappointed.
    I came to the university following 26 years in the oil and 
gas industry. I have had the privilege of working on carbon 
dioxide utilization and storage issues, technologies and 
policies for the bulk of my career.
    For example, I was a technology leader with the Sleipner 
CO<INF>2</INF> Storage Project in the Norwegian offshore from 
its inception. Sleipner CO<INF>2</INF> Storage Facility was the 
first in the world to inject CO<INF>2</INF> into a dedicated 
subsurface reservoir for the purpose of storage. The Sleipner 
facility has captured CO<INF>2</INF> at the Sleipner area gas 
development since 1996. The captured CO<INF>2</INF> is directly 
injected into the offshore sandstone reservoir. Nearly a 
million tons of CO<INF>2</INF> is injected per annum, and over 
17 million tons has been injected since inception.
    My work with carbon capture, utilization, and storage 
continues through the present day at SER, the School of Energy 
Resources. We continue to conduct important research related to 
the geologic storage of CO<INF>2</INF> in saline aquifers, and 
to improve carbon dioxide-motivated enhanced oil recovery 
operations.
    The State of Wyoming is an ideal jurisdiction to advance 
research and projects related to capturing and utilizing 
emissions of CO<INF>2</INF>. For example, the Wyoming 
legislature provided for the development of an integrated test 
center to serve as an operational test site for CO<INF>2</INF> 
capture and utilization technology developers. The Wyoming 
Infrastructure Authority led the development of the site with 
the support of many private and public sector entities in 
Wyoming.
    The ITC will soon host five semifinalists of the coal track 
of the $20 million NRG COSIA Carbon XPRIZE, a global 
competition to develop breakthrough technologies that convert 
CO<INF>2</INF> emissions from fossil fuel combustion into 
products with the highest net value. Competitors in this 
program are developing processes that utilize CO<INF>2</INF> in 
the production of, for example, enhanced concrete, biofuels, 
nanotubes, and fertilizers. In fact, the Carbon XPRIZE 
finalists were announced Monday evening in New York City, and 
five of these finalists will be operating by the end of this 
calendar year in Wyoming.
    Wyoming is also one of a handful of States with existing 
CO<INF>2</INF> pipeline infrastructure to serve an active 
enhanced oil recovery industry. The State has also planned for 
future expansion of the network through ongoing efforts of the 
Wyoming Pipeline Corridor Initiative, primarily for providing 
CO<INF>2</INF> to parts of the State with significant demand 
for supply.
    I am pleased to testify today in support of the USE IT Act. 
My testimony focuses on carbon dioxide utilization section of 
Title I, which amends section 103 of the Clean Air Act to 
authorize the U.S. Environmental Protection Agency to support 
certain CCUS related research and development activities by the 
States, institutions of higher education, and others.
    Title I of the USE IT Act, in part, authorizes the EPA to 
carry out a research and development program for carbon dioxide 
utilization to promote technologies that transform carbon 
dioxide generated by industrial processes into a product of 
commercial value, or as an input to products of commercial 
value. The bill defines carbon dioxide utilization as 
technologies or approaches that lead to the use of carbon 
dioxide through fixation of CO<INF>2</INF> through 
photosynthesis or chemosynthesis, such as through the growing 
of algae or bacteria; the chemical conversion of CO<INF>2</INF> 
to a material or chemical compound in which the CO<INF>2</INF> 
is securely stored; and the use of CO<INF>2</INF> for any other 
purpose for which a commercial market exists.
    The EPA is to provide technical and financial assistance to 
certain eligible CO<INF>2</INF> utilization projects, with the 
eligibility criteria including access to an emissions stream 
from a U.S. based stationary source that is capable of 
providing not less than 250 metric tons of CO<INF>2</INF> per 
day.
    I support these provisions. Not only do they create another 
source of critically needed funding for the CCUS related 
research and technologies, but also they apply to a broad swath 
of potential CCUS technologies. Eligible technologies include 
the use of CO<INF>2</INF> for any other purpose for which 
commercial markets exist, which I interpret to include 
CO<INF>2</INF>-EOR.
    Moving to Title II, the USE IT Act first explicitly makes 
certain CCUS related projects, including CO<INF>2</INF> 
pipelines, subject to the 2015 Fixing America's Surface 
Transportation Act, or FAST Act. The FAST Act seeks to 
streamline Federal environmental review and permitting, 
reducing bureaucratic redundancies for certain large 
infrastructure projects, and second, directs the Chair of the 
White House Council on Environmental Quality, in consultation 
with EPA, DOE, and others, to prepare guidance to facilitate 
reviews associated with the deployment of CCUS projects and 
CO<INF>2</INF> pipelines.
    I support these provisions as well. In addition to 
financial challenges, CCUS projects face unfortunate headwinds 
caused by well intended, but nonetheless, arguably, 
counterproductive Federal policies. These policies include time 
consuming reviews under NEPA, which is a specific challenge for 
States such as Wyoming that have significant areas of Federal 
lands. The Underground Injection Code under the Safe Drinking 
Water Act also arguably stands as an impediment to CCUS 
projects due to aspects of the Class VI CO<INF>2</INF> 
injection storage regulations that are difficult, if not 
impossible, for the private sector to utilize. Title II of the 
USE IT Act should go some way toward ameliorating these and 
related challenges facing CCUS projects and technologies.
    This concludes my testimony. I am pleased to testify today 
in support of the USE IT Act. The ongoing Federal role in 
supporting CCUS research at institutions of higher education is 
imperative.
    Mr. Chairman, Ranking Member Carper, and members of the 
Committee, I would be pleased to answer any questions that you 
may have. Thank you.
    [The prepared statement of Mr. Northam follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Barrasso. Thank you so much, Dr. Northam, for being 
here today.
    Dr. Friedmann.

               STATEMENT OF S. JULIO FRIEDMANN, 
         CHIEF EXECUTIVE OFFICER, CARBON WRANGLER, LLC

    Mr. Friedmann. Mr. Chairman, Ranking Member Carper, all the 
distinguished members of the Committee, thank you so much for 
inviting my testimony. I am honored to return. I believe last 
time I was here I was pleased and proud to serve as a minority 
witness. Today I am pleased and proud to serve as a majority 
witness.
    My name is Julio. Until recently, I served as the Senior 
Advisor for Energy Innovation at the Lawrence Livermore 
National Laboratory. Prior to that, for about 2 and a half 
years, I was the Principal Deputy Assistant Secretary at the 
Office of Fossil Energy and happy to serve under Secretary 
Moniz there. I have spent 17 years working on clean energy 
technology and development, most of that focused on CCUS, and 
mostly from Lawrence Livermore National Lab.
    My testimony last September focused on CCUS as a technology 
set. Since then, a sea change has occurred regarding this 
critical and important technology. Much of this is the result 
of the passage of the FUTURE Act. In my own travels around the 
world, we are the talk of the town, and carbon is the new 
black.
    The Act will greatly enhance the ability of commercial CCUS 
projects. It will attract financing, and it has already 
reaffirmed the United States unambiguously as the leader 
worldwide in CCUS development, deployment, and policy.
    Because of that financial support for the FUTURE Act, the 
rate of CCUS deployment is now limited by a different set of 
issues. Some of those issues are associated with the cost of 
technology; some of them are associated with the use of carbon 
dioxide itself; some of them are associated with regulatory 
issues and permitting issues.
    As such, I am pleased to see the USE IT Act bill. I am 
pleased to testify in support of it. I believe that the USE IT 
Act will ultimately lower hurdles to investment; it will lower 
barriers to deployment; and ultimately it will serve the 
development, deployment, and export of this important clean 
energy technology.
    I just want to speak very briefly about direct air capture. 
This is something I have spent a lot of time working on and 
believe that this is an underserved and important technology 
option.
    There are simply some sources of carbon dioxide that 
mankind emits that are hard to manage, and in doing so, dealing 
with those will prove to be very expensive. Direct air capture 
technology today already beats the cost of many of those 
options, and those costs are coming down fast. There are at 
least three companies that are developing and deploying this 
technology worldwide, and I have been very impressed by the 
rate of progress. That said, there remains substantial 
technical challenges, which is part of the reason to have 
substantial focus on the research and development of them.
    The same thing can be said about the use of carbon dioxide 
and conversion to valuable products. We are seeing, again, a 
lot of interesting technologies developed and a lot of 
interesting companies out there. The venture community, the 
equity companies, the banks that are looking at these companies 
have uniformly said, gosh, these are cool; wish we had 100 more 
like them behind it. There are simply not enough shots on net, 
there are not enough companies being fielded and deployed, and 
there needs to be a larger innovation thrust in order to get 
those technologies to market.
    In that context, Title I of this bill I think provides a 
pathway to doing so. In my own experience at the Department of 
Energy, we fielded a solicitation in this arena. We would love 
to see more work of that kind. It would be my hope that if the 
EPA has this research program and begins it, that they would 
actually partner with the Department of Energy in thinking 
about a good way to structure and execute such a program.
    With respect to CO<INF>2</INF> infrastructure otherwise, in 
many ways the United States has already demonstrated its 
prowess in fielding and managing CCUS infrastructure. The 
current network of about 5,000 miles of CO<INF>2</INF> 
pipelines, the creation of class II and class VI statutes under 
the EPA and under the Safe Water Drinking Act, and in fact, 
programs like the long lived regional Carbon Sequestration 
Partnerships have all been important to actually get this 
infrastructure up and running.
    However, there are still shortcomings to these programs. 
The infrastructure elements that are out there limit deployment 
in the market in many ways. These are in my written testimony, 
and I ask for you to review those.
    Many groups have acknowledged that there is a shortage in 
this infrastructure and that they prevent a limitation. These 
pipelines, these storage sites are going to be anchors for 
commercial development; they are going to be anchors for future 
manufacturing in a new carbon economy; they are going to be 
anchors for communities who want to preserve jobs or have 
growth.
    Among other things, the Department of Energy's Quadrennial 
Energy Review volume 1.1, the work from the Global 
CO<INF>2</INF> Initiative, the State CO<INF>2</INF>-EOR Working 
Group have all identified the critical issue of pipeline 
permitting and pipeline deployment in order to get this 
technology up and running. The most important of these 
pipelines will actually have to be built in States that don't 
have an EOR opportunity, which are unused to the permitting and 
deployment of these. So, having pathways that will make it 
faster and easier for investors to look at the risks and say, 
yes, we understand that we want to build this thing and that 
the risks and the costs associated with it are realistic and 
manageable is an important outcome of a bill like the USE IT 
Act.
    I could go on, but the punchline here is if we want to get 
beyond 10 million or 20 million tons of deployment, if we want 
to get to 50 million to 100 million tons of deployment of CCUS, 
we will need to get this kind of infrastructure up and running.
    [The prepared statement of Mr. Friedmann follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Barrasso. Thank you very much, Dr. Friedmann. 
Always a pleasure to have you here.
    Mr. Deich.

                   STATEMENT OF NOAH DEICH, 
         EXECUTIVE DIRECTOR, CENTER FOR CARBON REMOVAL

    Mr. Deich. Good morning to the members of the Committee, 
and thank you for your invitation to testify.
    I am the Executive Director of the Center for Carbon 
Removal, a nonpartisan, nonprofit organization based in the Bay 
Area of California. Our mission at the Center is to build what 
we call a new carbon economy. The essential feature of the new 
carbon economy is the pursuit of strong economic growth fueled 
by innovative strategies for cleaning up carbon from the air in 
a way that protects the environment. The essential strategies 
for achieving a new carbon economy include the carbon capture 
technologies advanced in the USE IT Act, as well as other 
forestry, agriculture, and industrial approaches for 
transforming carbon pollution back into a valuable resource.
    In my testimony today, I will share why I believe the goals 
of the USE IT Act and other Federal policy efforts to advance a 
new carbon economy are so valuable and why bipartisan 
improvements to the USE IT Act could help it achieve greater 
positive economic and environmental impact.
    To begin, the co-sponsors of the USE IT Act, Chairman 
Barrasso and Senators Capito, Heitkamp, and Whitehouse, deserve 
immense credit for designing this bill to support innovative 
carbon capture technologies that will be essential for future 
American economic competitiveness and climate leadership.
    In my work, I see businesses, investors, and climate 
champions alike increasingly embrace both the direct air 
capture technologies, which use clean energy to filter carbon 
from ambient air, and the carbon use systems, which harness 
CO<INF>2</INF> to produce valuable products like building 
materials or clean fuels that are supported by this Act. We 
need these technologies to halt climate change.
    And if we support research development and demonstration of 
these technologies domestically today, exactly like the USE IT 
Act does, we can ensure that the U.S. exports, not imports, 
direct air capture and carbon use systems in the decades to 
come, creating good jobs and wealth creation in geographies 
across America.
    In addition, the USE IT Act is highly complementary to the 
45Q tax credit, which was reformed earlier this year to include 
both direct air capture and carbon use systems.
    Just as Julio has mentioned, I have seen 45Q improve the 
investment outlook for carbon capture technologies nearly 
overnight. But for this policy to advance, the full suite of 
carbon capture solutions, additional Federal investment in R&D 
across agencies is needed to make new solutions like direct air 
capture and carbon use more economically competitive.
    The bipartisan nature of 45Q also provides an important 
model for advancing this legislation. I see bipartisanship as 
essential, as the investors and companies that we work with 
need to have confidence that any legislation will endure 
through routine political transitions.
    The main concerns that I have heard about this legislation 
come from environmental groups, who primarily worry that 
components of this bill could lead to the erosion of 
foundational environmental loss. Ensuring that the amendment 
process for the USE IT Act is done in a bipartisan manner and 
that the language in the bill is bolstered to ensure that it 
will not be used to weaken valuable environmental laws will be 
essential for building support for this bill from those 
environmental constituencies.
    I am actually very hopeful that the bipartisan process 
exemplified by 45Q can be a model for addressing concerns about 
the USE IT Act swiftly. Congressional legislation aimed at 
building a new carbon economy can steer us toward a future 
where we solve climate and economic challenges hand in hand.
    I applaud this Committee for its leadership in pioneering 
the next generation of these carbon capture technologies, and I 
would also like to use this opportunity to invite the members 
of the Committee to join us at the Center for any future events 
related to building a new carbon economy, and I hope that we 
can be a resource to you all moving forward.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Deich follows:]


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Senator Barrasso. Thank you so much for your thoughtful 
testimony.
    Dr. Jiao.

   STATEMENT OF FENG JIAO, ASSOCIATE PROFESSOR OF CHEMICAL & 
BIOMOLECULAR ENGINEERING AND ASSOCIATE DIRECTOR FOR THE CENTER 
   FOR CATALYTIC SCIENCE & TECHNOLOGY, UNIVERSITY OF DELAWARE

    Mr. Jiao. Thank you, Mr. Chairman, and thank you, Senator 
Carper, and the rest of the Committee.
    My name is Feng Jiao. I am Associate Professor of Chemical 
and Biomolecular Engineering at the University of Delaware. I 
also serve as the Associate Director for the Center for 
Catalytic Science and Technology.
    My research group currently raised support from NASA and 
Department of Energy, as well as the National Science 
Foundation to develop new CO<INF>2</INF> utilization 
technologies.
    As a critical component in CCUS, carbon utilization holds 
the key to generate revenues which can offset the capture cost, 
as well as the initial investment. An example is CO<INF>2</INF> 
enhanced oil recovery technology, a most successful approach to 
utilize CO<INF>2</INF> and generate revenues. To fully utilize 
this kind of technology, additional capital investment in 
CO<INF>2</INF> pipelines and infrastructure are often required. 
In principle, the carbon capture facility could be built right 
next to the utilization site.
    A good example is a Swiss company called Climeworks, who 
built the first commercial plant to capture carbon dioxide 
directly from air and sells locally to greenhouse for profit. 
The facility actually can capture up to 900 tons of 
CO<INF>2</INF> per year. The concept is very appealing, of 
course. There are some technical challenges for these kinds of 
technologies. One of them is the capture cost is still high 
compared to other carbon capture technologies.
    At the University of Delaware, we are actively developing 
alternative approaches to utilize CO<INF>2</INF>. Thanks to the 
recent award from the Department of Energy National Energy 
Technology Laboratory, we are able to develop an 
electrochemical system which can convert carbon dioxide into 
useful chemicals. The so called CO<INF>2</INF> electrolyzer can 
produce useful chemicals, such as ethanol, ethylene, and 
syngas, from CO<INF>2</INF> and water.
    The technology is intrinsically scalable and ideal for 
distributed systems at CO<INF>2</INF> point sources. If powered 
by low cost renewable electricity, the CO<INF>2</INF> 
electrolysis technology could provide a profitable approach to 
use CO<INF>2</INF> as the carbon source for commodity chemical 
production.
    At Delaware, we also established a startup company called 
CO<INF>2</INF> Energy LLC to commercialize the CO<INF>2</INF> 
electrolyzer technology. Large international energy companies, 
such as Shell and TOTAL, are also actively involved in 
developing this kind of technology. Because of these efforts, 
the performance of CO<INF>2</INF> electrolyzers have been 
rapidly improved recently. Of course, the technology itself is 
still premature for commercial deployment, so more R&D efforts 
and more investment is urgently required in the United States 
to further this technology so that we can be the global leader 
in this clean air technology.
    Again, innovations in CO<INF>2</INF> utilization are much 
needed because this is the only way to generate revenue streams 
for CCUS. Any CCUS operation fully relying on government 
subsidies is not sustainable. I fully support further 
investment in advanced CCUS technologies, and I will be happy 
to answer any questions you may have. Thank you.
    [The prepared statement of Mr. Jiao follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Barrasso. We are very grateful for your testimony. 
Thank you for joining us today from Delaware.
    We will start with rounds of questions for 5 minutes, and I 
will start with Dr. Northam, if I could.
    The State of Wyoming's leadership in carbon capture and 
utilization is very impressive. Through the university's work 
and initiatives like the Integrated Test Center in Gillette, 
Wyoming has already established itself as an innovative hub. 
The recent passage of the FUTURE Act has spurred interest in 
investment in carbon capture projects.
    Do you think the USE IT Act's focus on permitting capture 
projects and pipelines is going to increase the interest that 
you are seeing, and can you explain why?
    Mr. Northam. Thank you, Mr. Chairman. There is a large 
demand for carbon dioxide for enhanced oil recovery in the 
State of Wyoming, a demand that cannot be met by traditional 
supply. For example, in the Big Horn Basin, where there is no 
supply of CO<INF>2</INF> today, there is easily a billion 
barrels of incrementally recoverable oil if we had access to 
CO<INF>2</INF>.
    Infrastructure is certainly a large obstacle. The FUTURE 
Act has great potential for incentivizing anthropogenic 
CO<INF>2</INF> availability. The USE IT Act's impact on easing 
the development of infrastructure----
    Senator Carper. What is anthropogenic?
    Mr. Northam. I am sorry. Anthropogenic CO<INF>2</INF> is 
carbon dioxide that has been captured from some source that is 
created by man, combustion of coal, fossil fuels, or some 
industrial process, as opposed to natural CO<INF>2</INF> which 
we use today, which is carbon dioxide that is stripped from 
natural gas where the two are comingled in the reservoir.
    Senator Carper. The Chairman and I knew this. We just 
wanted to make sure our colleagues did, so thank you very much 
for your clarification.
    Mr. Northam. Yes, I assumed that you knew that.
    [Laughter.]
    Mr. Northam. But I apologize. I will be more careful.
    Senator Barrasso. That was for the record only. Everybody 
here knew it. Everyone here on the panel knew it.
    Mr. Northam. It comes from the Latin. No, never mind.
    [Laughter.]
    Mr. Northam. The USE IT Act's impact on easing the 
development of infrastructure is the next step in the process 
of developing infrastructure, so I would say that, absolutely, 
yes, the USE IT Act has a great potential for not only spurring 
the carbon capture and utilization side of the process, but 
will have an economic impact on the State of Wyoming.
    Senator Barrasso. Dr. Friedmann, if I could go to you. What 
I want to point out is you mention in your written testimony 
the current scale of CO<INF>2</INF> pipelines is inadequate, 
inadequate to support widespread carbon capture projects.
    Don't we need a coordinated and rapid buildout of 
CO<INF>2</INF> infrastructure in the country to meet the 
projected needs, and would the USE IT Act address that need?
    Mr. Friedmann. Thank you. Yes, this is not the first time 
this question has been asked or studied. Back in 2008 Pacific 
Northwest National Lab did a fairly comprehensive study to 
figure out how much CO<INF>2</INF> pipeline network we needed 
in this country, and their estimate was, to hit our goals by 
2030, we needed something on the order of 20,000 to 30,000 
miles of CO<INF>2</INF> pipelines, and we also needed them in 
areas that are not traditional EOR provinces.
    We needed them in places where they could provide access to 
sale and formation storage, and a lot of those are actually in 
the Midwest, in particular, Illinois, Indiana, Ohio, West 
Virginia, Pennsylvania, Michigan. These are States that 
currently lack CO<INF>2</INF> infrastructure, but would benefit 
from the ability to store CO<INF>2</INF>.
    As I said earlier, and I want to underscore this point, 
that infrastructure, like any other substantial shared 
infrastructure, becomes a magnet for industry; becomes a magnet 
for development; becomes an opportunity for economic growth, so 
I see these things as highly complementary and positive.
    Senator Barrasso. Dr. Northam, you talked about carbon 
dioxide being used in enhanced oil recovery. Part of the 
purpose of the bill is also to promote research in additional 
uses of carbon. It is going to allow carbon dioxide to have 
commercial purposes even in areas across the country that 
aren't blessed, like we are in Wyoming, with oil resources.
    Can you talk a little bit about how this bill could 
encourage research in those other areas as well?
    Mr. Northam. Thank you, Mr. Chairman, yes. Wyoming's 
Integrated Test Center is an example of how this bill will 
encourage research into other uses. It provides a facility with 
adequate space for research and access to significant emission 
stream; it provides space for scale up of successful projects, 
which I would say is our most critical need at this time; and 
it provides for competitive funding to be put to work.
    All of these elements, especially the stated support for 
scale up, are critical to the success of CO<INF>2</INF> 
utilization schemes. The ITC went from concept to reality 
rapidly, but there is still a need for additional programs like 
the ITC to expand and sustain this effort, and I believe that 
that is a critical deliverable from the USE IT Act.
    Senator Barrasso. Dr. Friedmann, section 202 of the bill I 
think is critical. This section brings stakeholders together to 
promote the development of capture projects in CO<INF>2</INF> 
pipelines across the country. How would this part of the USE IT 
Act address the need for better State and Federal coordination, 
a point that you raised in your written testimony?
    Mr. Friedmann. Thank you for asking, and happy to discuss. 
One of the things that is the case is that we haven't actually 
deployed a lot of CO<INF>2</INF> storage wells. We haven't 
deployed a lot of carbon capture facilities in this country. As 
a consequence, we haven't actually tested or coordinated the 
existing regulatory base that is out there, and in many cases 
what we have there we recognize can be an impediment.
    Just as one example, there has only been one class VI well 
permitted in this country. There haven't been a whole bunch of 
people asking to permit them, but there has been one request 
and one permitted. It took 54 months. It took a very, very long 
time, and that is a hurdle to investors.
    If people are looking at this and say it is going to take 6 
years to get the pipeline built, while it is going to take 5 
years to get the well permitted, then it makes it much harder 
for them to make the investment decision to build whatever 
needs to be built, including this kind of infrastructure.
    And I mention this specifically because the wise 
individuals who put together the FUTURE Act also put together a 
fuse on it. You have to have projects begin construction by 
January 1st, 2024, and that timeline is actually a very good 
one; it creates an incentive for people to get busy and get 
moving.
    However, if people can overcome the financial hurdle and 
then see a regulatory hurdle behind it that they think will 
limit the chance for them to take advantage of those tax 
credits or take advantage of the opportunities that CCUS 
projects and technologies provide, then it will just limit the 
pool of applicants, it will limit the projects, and it will 
limit deployment.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Again, our thanks to all of you. Every now and then we ask 
unanimous consent to enter for the record a question or series 
of questions, and I would ask unanimous consent, Mr. Chairman, 
a letter from 14 environmental groups that have some concerns 
about Title II of the legislation.
    Senator Barrasso. Without objection.
    Senator Carper. Thanks very much.
    [The referenced information was not received at time of 
print.]
    Senator Carper. Let me start off, if I could, with Dr. 
Jiao.
    Thank you so much for your work at the University of 
Delaware. You make us proud every day. Is anybody here with you 
from the University of Delaware, like anybody from Angie's List 
over your left shoulder? Angie, welcome. And for others who 
might be here who are also part of Blue Hen Nation. Thank you.
    Dr. Jiao, in your opinion, what is the smartest way we 
could be investing Federal dollars to ensure that carbon 
capture and utilization become mainstream? And why is your work 
at the University of Delaware so important for a carbon-free 
future?
    Mr. Jiao. Thank you, Senator. So, I think the key to get 
people onboard, particularly the people from industry, is to 
make CCUS profitable. So, I think I concur with some of the 
earlier points by made by Senator Whitehouse, as well. In the 
past, the investment in CCUS was mostly on the capture side and 
storage. Although such technology is fantastic, and we 
definitely need it, I don't think it can generate any revenue, 
which becomes the problem because this is not a sustainable 
business by itself.
    So, I believe we should pay more attention to the 
utilization side, particularly I think the USE IT Act actually 
creates a lot of efforts in moving toward that direction, which 
I am really glad to see.
    We work on universal data which is actually kind of 
motivated by this motion. We are trying to make the utilization 
more favorable or economically more favorable compared to other 
technologies on the market, and if we can find a way to make 
CO<INF>2</INF> into some valuable chemicals, that will 
potentially disrupt the current chemical production process. 
Mostly, we use derived carbon source, but now we can move away 
from that using CO<INF>2</INF> instead, and I think that will 
actually help us to reduce the CO<INF>2</INF> emissions.
    Senator Carper. All right, thank you.
    I want each of you to answer this question very briefly, 
and if you say no way, that would be OK too.
    Almost every piece of legislation I have introduced, and 
sometimes with colleagues that are here today on this 
Committee, it is rare that I introduce legislation that is 
perfect. Maybe never. I would just say, Dr. Jiao, if you had to 
pick maybe one area that we could improve this legislation, 
very briefly, what might that be? Then I am going to ask our 
other witnesses to do the same. Just one area where you think 
we can actually make an improvement, please. Just briefly.
    Mr. Jiao. I think my work quite recently is mostly funded 
by DOE, so I think DOE has a lot of experience investing in 
these carbon capture utilization technologies, so the bill 
actually is going to ask EPA to administer these efforts, so I 
think probably they should coordinate across the agency somehow 
so they then will make the investment more efficient.
    Senator Carper. Thank you.
    Mr. Deich.
    Mr. Deich. Thank you, yes. I think section 202, with the 
Task Force, can be strengthened, both to build on what Dr. 
Friedmann said, around the environmental integrity for storing 
carbon long term, as well as for understanding really what the 
frontier of the regulations need to look like, especially 
around carbon use and the carbon accounting there. I think the 
National Academies are a great resource, so coordinating with 
them for implementing this task force would be very valuable.
    Senator Carper. Good. Thank you.
    Dr. Friedmann. Do you pronounce your name Julio?
    Mr. Friedmann. Yes, sir, Julio.
    Senator Carper. Good, the right way.
    Mr. Friedmann. Super quickly, a different variant on what 
Dr. Jiao said, it would be great to have DOE engagement in this 
process because they understand how to do this, and it has been 
a while since the EPA has executed research of this type. They 
would be strengthened by having that joint partnership.
    I would also agree with Mr. Deich about the opportunity to 
try to strengthen and clarify the purpose of section 202, that 
you want to ensure that you do in fact find ways to amend and 
improve the permitting and the regulatory aspects of this 
without actually endangering key environmental provisions. And 
if there is some way to add language that would strengthen and 
clarify those goals, I think that would probably be valuable.
    The last point I would just make is there is in fact a need 
to have improved lifecycle analyses and understanding of the 
true carbon emissions associated with all of this work. Having 
that maybe under NIST, maybe some other organization, maybe the 
EPA, but trying to find a way to formalize the standards around 
these kinds of technologies would be helpful.
    Senator Carper. OK, good. Thanks.
    Same question, Dr. Northam.
    Mr. Northam. Thank you very much. So, I would cite two 
simple ways that I think this could be improved. Title 101 that 
focuses on air capture, I would love to see it expanded to 
focus on any type of capture of CO<INF>2</INF>. Capture from 
point sources is critically important. The technologies are 
farther along in terms of their development, so supporting the 
deployment of that I think would be an important improvement.
    The second would be to not only focus on research, but one 
of the most critical needs for technology developers is funding 
for the development and scale up process, and that is the 
valley of death that tends to be very difficult for inventors 
and innovators to overcome, so some addressing that part of the 
process would also, I think, improve this Act.
    Senator Carper. Great. Thank you all for those responses.
    Thanks, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me just make an observation here that I don't think 
anyone has made yet, and it has to do with fossil fuels. I can 
remember 9 years ago, when President Obama first came in, he 
had this commitment to do away with fossil fuels, and I can 
remember going back to Oklahoma. I remember it so well because 
it was Shattuck, Oklahoma. I doubt any of you have ever been to 
Shattuck, Oklahoma.
    Someone said, Senator Inhofe, I don't quite understand. We 
have a President who is against fossil fuels, coal, oil, and 
gas, and yet that is accountable for 80 percent of the energy 
it takes to run this machine called America. He said, now, if 
he is successful in doing away with it, how do we run the 
machine called America?
    That was a logical question, and we dealt with that for a 
long period of time. Now, today, we have an answer, and I think 
this is really exciting. This is something that is a 
recognition that we will have to continue to use fossil fuels 
as a major part of our energy supply in a way that satisfies 
everyone. So, it is one of these rare cases where you have a 
lot of agreement from people who have disagreed in the past.
    Dr. Friedmann, I was here for the opening statements. We go 
back and forth because we have nine members in common between 
this Committee and the Commerce Committee, so you are seeing 
people come and go. But I remember you made reference in your 
opening statement to the FAST Act permitting reform, and I 
think more people need to talk about that, because we can get 
things done. The FAST Act is a good example. We did the FAST 
Act primarily because of that permitting reform. We are able to 
do things on a timeline that can be enjoyed by all Americans, 
so I appreciate your bringing that up.
    Dr. Friedmann, your testimony illustrates a problem that 
exists regarding the need for CO<INF>2</INF> pipeline 
infrastructure and its effect in deploying the CCUS in the 
United States. Now, specifically, I will read the quote that is 
the basis of my question: ``Ambiguities in the process or 
delays in permitting directly affect the financial viability of 
projects and their ability to attract investors.''
    What are the roadblocks that you see out there that are in 
the development of the CO<INF>2</INF> pipeline?
    Mr. Friedmann. Thank you for asking.
    Senator Inhofe. You know, I think about it, it might have 
been----
    Mr. Friedmann. Dr. Northam.
    Senator Inhofe [continuing]. Northam who brought up the 
question on permitting, so I am sorry. Either one of you guys.
    Mr. Friedmann. You want to talk about section 201?
    Mr. Northam. You go ahead.
    Mr. Friedmann. All right, I will go.
    It is sad, but true, pipelines are orphaned in this whole 
discussion. A lot of people are happy to run storage projects, 
EOR projects, even capture projects on industrial plants, power 
plants. Not a lot of people want to build or operate the 
pipelines, so it is hard to gather the financing to build them. 
So, it is born problematic; it is just one of those parts of 
the system that is hard to get done.
    So, if people look at the setup and say, wait a second, I 
am not sure if the permit will go through, or I think it will 
take a very long time, and I am going to be paying interest on 
capital before anything gets built, it just chills the 
investment environment. It is just that simple. It is hard to 
pull together an investment of that scale and size. Many of 
these pipelines will cost hundreds of millions of dollars to 
build, and that is not easy to pull together.
    Senator Inhofe. Yes, good.
    Dr. Northam, the Integrated Test Center in Wyoming will be 
used to test different ways to repurpose carbon dioxide from a 
coal fired power plant. I am really interested in the 
repurposing element of this, and I would like to have you 
elaborate on your feelings how successful this could be and 
what we need to do to give you the resources you need to make 
this happen.
    Mr. Northam. Thank you for the question. So, the chemistry 
of converting carbon dioxide into anything else is very 
difficult. It is a very energetically stable molecule, so we 
need research to understand how to go from an energetically 
stable molecule into other products. A lot of what we use today 
is carbon based products, plastics, petrochemicals, fuels, so 
it is entirely doable. The question is can we do it efficiently 
and at a cost that competes with other sources of carbon.
    Integrated Test Center has overcome some of the big hurdles 
for people who are working in this arena by providing not only 
an emission stream, but space for them to work. And then 
enterprises like the XPRIZE and some of the competitions that 
are promised in the USE IT Act are going to spur people to take 
on these difficult problems because the prize at the end of the 
pipeline, if you will, is significant.
    Senator Inhofe. My time has expired, but I would be 
interested, for the record, in any of the rest of you who have 
ideas and thoughts on the repurposing element of this, and I 
would like very much to have the benefit of that, if you don't 
mind doing it. Any comments right now, but my time has expired.
    Mr. Deich. I will volunteer quickly that I think there is 
an important role of sequestering carbon in building materials, 
whether that is cements, roads, et cetera; and that the Federal 
Government can play a large role in being a first customer and 
a driver of those markets. So, the extent to which we can build 
on the first title of this bill to support those utilization 
technologies in our built environment will be very valuable.
    Senator Inhofe. Good.
    Any other comments for the record.
    Thank you, Mr. Chairman.
    Mr. Friedmann. I would agree that building materials, in 
particular concrete and cement, is very important. We move 55 
billion tons of concrete every year around the world. That is a 
big sink; and actually adding CO<INF>2</INF> to it improves the 
performance and makes it heavier and makes it more durable. 
There are a lot of good things that come from it.
    Eventually, we will also reach a day when we will directly 
convert carbon dioxide into fuels. Right now that costs about 
twice or three times what a conventional liquid fuel would 
cost, but if in fact you can pull carbon dioxide out of the 
air, and you can upgrade it to a fuel, then you have a circular 
economy.
    What I do believe is every major oil and gas company is 
looking at that. They are not going to deploy it anytime in the 
next 5 or 10 years, but they all see that that is something 
that they need to track and would like to figure out a way to 
offer something like that to their customers. CCUS technology 
is helpful.
    Senator Inhofe. That is fascinating.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Inhofe.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman. I appreciate being 
here today on a matter where, to quote Senator Inhofe, we have 
agreement from people who have disagreed in the past; and 
indeed disagree in the present; and indeed will continue to 
disagree in the future about many things.
    Senator Inhofe. But every time we have agreed it has been 
very successful. You look at the chemical act, the FAST Act.
    Senator Whitehouse. I have learned that when we agree, 
Senator Inhofe is perhaps the most effective legislator in the 
Senate. Certainly, I have seen nobody produce more. So, we just 
need to find out how to agree on more. But I really appreciate 
this and look forward to working with my colleagues.
    I guess what I would ask in my time is the record be clear 
what the sort of baseline proposition is here, why it matters 
to reduce our emissions of carbon dioxide, our anthropogenic 
emissions of carbon dioxide, starting with Dr. Northam.
    Why are we doing this? Why does it matter? What does this 
help?
    Mr. Northam. Senator Whitehouse, thank you very much. On 
Saturday I was on a panel with the Ambassador from the EU to 
the United States, and one of the statements he made was Europe 
got over the hurdle of recognizing that carbon dioxide was 
contributing to global warming 20 years ago and has a very 
effective set of policies and procedures for reducing the 
CO<INF>2</INF>.
    I think it is important because time is ticking. Most of 
the scientific community recognizes that CO<INF>2</INF> is 
contributing to global warming; we are starting to see the 
impacts of it. These solutions are extremely technically 
difficult and expensive, and if we don't start actually making 
some progress, the progress we do make could be too late for 
staving off these major impacts.
    Senator Whitehouse. Plus, other countries might steal a 
march on us technologically.
    Mr. Northam. Absolutely.
    Senator Whitehouse. Same question, Dr. Friedmann.
    Mr. Friedmann. Thank you, Senator. All of this actually 
flows back in a real politic context; not in a scientific 
context, but in a real practical politics concept back to the 
Paris Agreement, and this is completely independent of whether 
or not the United States remains in it, although I personally 
think that would be a lovely thing.
    First of all, the punchline is that greenhouse gases 
emissions represent a threat to national security of the United 
States; they represent a threat to our----
    Senator Whitehouse. And carbon dioxide.
    Mr. Friedmann. Sorry?
    Senator Whitehouse. Carbon dioxide is one of those 
greenhouse gases?
    Mr. Friedmann. Carbon dioxide is the most important of 
those.
    Senator Whitehouse. Got it.
    Mr. Friedmann. We emit 38 billion tons over the year, and 
that is an issue; ``we'' meaning the globe, not the United 
States.
    It represents an environmental threat. We have extinctions, 
we are losing species, we have sea level rise, coral bleaching, 
all those other sorts of things, which are directly 
attributable to greenhouse gas emissions.
    In addition to that, we are starting to have economic 
impacts that are associated with that that are rather grim and 
problematic.
    That, however, as important as that is and as much as I 
spend my time on it, it is not the most important thing. The 
most important thing is actually 197 countries have all said 
that they care about it, which means the entire global market 
is organized now. The entire global market is organized now to 
figure out ways to reduce emissions and to turn carbon dioxide 
into value.
    Senator Whitehouse. And putting aside everything else, 
participating in that global market has economic value for the 
United States.
    Mr. Friedmann. Indeed. As export technologies to the United 
States, both in terms of product and in terms of heavy 
equipment.
    Senator Whitehouse. Mr. Deich. Did I pronounce your name 
right? If I didn't, I apologize.
    Mr. Deich. You did. Thank you, Senator.
    Senator Whitehouse. Great. Thank you.
    Mr. Deich. So, I think the bottom line here is this is 
going to be the economy of the future, figuring out how to take 
the carbon that is already in the air and pulling it back in a 
way that improves the economy and the environment.
    Senator Whitehouse. And we need to get the carbon dioxide 
out of the atmosphere because of what?
    Mr. Deich. Because of both the environmental harm that 
could come from climate change, as well as all of the other 
changes to our society. But I really see this as an 
opportunity. There are 2 trillion tons of CO<INF>2</INF>--
trillion with a T--that have been put into the atmosphere. All 
of that can come back out as a valuable resource, and that is 
the biggest business opportunity that we have ever seen. So, if 
we can figure out how to do that across the economy, that is a 
huge opportunity that simultaneously solves these massive 
global challenges on hand.
    Senator Whitehouse. Hard to do any of that if there is no 
price on carbon, though, because then there is no revenue 
stream, correct?
    Mr. Deich. I would actually argue that there is now a price 
on carbon in not a clean way, as an economist like myself would 
want, but we do have, both with 45Q, a price on sequestering 
carbon----
    Senator Whitehouse. Precisely.
    Mr. Deich [continuing]. And through a series of other----
    Senator Whitehouse. Precisely. That is what we did in that 
bill, was to create a very narrow specific version of it, 
correct?
    Mr. Deich. The extent to which we can expand on that and 
make sure that there is a robust market, and that that market 
happens here first is essential.
    Senator Whitehouse. Dr. Jiao, the reason we want to or 
benefit from reducing carbon dioxide anthropogenic emissions 
into the atmosphere is?
    Mr. Jiao. So, I think much has been said about the 
potential climate impact when we emit tremendous amount of 
CO<INF>2</INF> into the atmosphere. I also concur with some of 
the points made before. I see this as an opportunity to 
generate profitable pathways to utilize CO<INF>2</INF>. We 
definitely have an abundant source of CO<INF>2</INF>. If we can 
figure out a way how we can make CO<INF>2</INF> into valuable 
chemicals or fuels, probably, and in an efficient way, then 
this will solve our issue, I think.
    Senator Whitehouse. Thank you.
    Thank you, Chairman.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Capito, again, thank you so much for your co-
sponsorship and your hard work on this piece of legislation.
    Senator Capito. Thank you. I want to thank everybody on the 
panel, too, and I want to start out talking again on the 
pipeline issue because I think this is a concern if we are 
going to move forward. In the answers you gave to the previous 
question, obviously, this is a stumbling block.
    I have a figure here that says 4,500 miles of 
CO<INF>2</INF> pipelines are in this country now, but are any 
of those interstate; do any of them cross State lines, as far 
as you know?
    Mr. Northam. Yes. The quick answer is yes. There are 
pipelines that deliver CO<INF>2</INF> that is produced in 
Colorado to west Texas for enhanced oil recovery. There are 
others as well, but yes, there are interstate.
    Senator Capito. OK. My point being there, obviously, is the 
permitting interstate obviously is a part of this bill, it is 
critically important.
    The next question I have is on what we were talking about 
just a few minutes ago. I think you all have done a really nice 
job talking about why CCUS is important for the environment, 
for our economy, and for job creation and others. I come from, 
obviously, a heavy coal State. This is very important to us in 
terms of being able to have the longevity in the coal industry, 
but also the environmental benefits are important to us, as 
well.
    So, in our experts' opinion, would you say that the United 
States is a leader now in CCUS technologies? I think you have 
already mentioned--I am just going to throw this up to 
anybody--what other countries are really forward thinking here? 
I know you mentioned the European Union. Are there other 
countries that we should be looking at who are developing this 
technology at a more rapid and more advanced state?
    Dr. Friedmann.
    Mr. Friedmann. So, I am pleased to say that the United 
States is now the unambiguous leader in carbon capture and 
storage technology, and in no small part, again, because of the 
passage of the FUTURE Act.
    I would say that there are many countries that are working 
to catch up. Canada is most notable in this regard. Also, 
Norway has been an international class leader. In the context 
of both carbon capture, but even more importantly for 
CO<INF>2</INF> conversion and use, China is coming on strong, 
for real.
    I would point, among other things, to the Strategic Applied 
Research Institute, SARI, in Shanghai Technical University. 
They have built a building there that has 100 scientists; they 
are gearing up to 1,000 scientists. It is underwritten by the 
Chinese Academy of Sciences. All of that is focused on carbon 
capture and utilization.
    The same thing can be said about Japan. Again, the same 
thing can be said about Canada. Out of the 10 finalists for the 
NRG COSIA XPRIZE, four of them are Canadian. Not a knock on 
Canada, we love Canada, but it would be lovely to see America's 
unambiguous leadership in this arena.
    Senator Capito. Well, obviously, there would be tremendous 
economic benefits to us, and I would like to see that as well.
    Do the two of you have anything to add on that?
    Mr. Deich. Thank you, Senator. I think one of the things 
where we have not seen a leader emerge yet is in the direct air 
capture field. I think there are many places that are 
positioned to do that, and the United States is one of them, 
but unless there is action from policymakers, that leadership 
could easily go somewhere else right now. So, I think that 
figuring out how to be that leader is essential today.
    Senator Capito. Dr. Jiao.
    Mr. Jiao. Regarding the technology I am working on, 
actually, Canada, Europe, and even China, they are actually 
very aggressive in this area, so if we don't act now, I think 
we will lose the leadership.
    Senator Capito. We just had a discussion in your answers 
about global warming and the threat that you all perceive 
there. Is there any realistic way for the world to stay below 
the commonly identified 2 degree Celsius global mean 
temperature in increase target this century without broad CCUS? 
Can we do it as a Nation without this development of this 
technology and utilization of the technology?
    Mr. Northam. My opinion, but the simple answer is no, we 
cannot.
    Senator Capito. Dr. Friedmann.
    Mr. Friedmann. Doubling down on that, actually, we are, 
instead, poised to massive overshoot, and every credible 
scenario not only has large scale CCUS deployment in the next 
20 years, but also large scale carbon removal after 2050, which 
requires carbon capture and storage and things like direct air 
capture.
    Senator Capito. Did you have a comment?
    Mr. Deich. I would agree.
    Senator Capito. Right.
    Mr. Jiao. Yes, I agree.
    Senator Capito. All right. Thank you all very much.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Thank all of you. Sorry I missed the testimony; I was in 
another committee, but I have had a chance to look it over, and 
I strongly support this legislation. I should mention that in 
Maryland we have a company called AES. It is the Warrior Run 
power plant in Cumberland, Maryland, where they capture 4 
percent of the carbon dioxide generated and sell 150 tons per 
day to beverage grade carbon dioxide in the food and beverage 
industry. So, I support this legislation.
    But I do want to pick up on some of the comments Senator 
Whitehouse made and responses that you all made, which is that 
the reason we are doing this, the reason we are actually 
spending taxpayer dollars to do this is that there is a public 
good to be had from reducing carbon, and therefore, trying to 
address the problem of climate change.
    Just a yes or no from each of you.
    Mr. Northam. Yes.
    Mr. Friedmann. Oh, yes.
    Mr. Deich. Yes.
    Mr. Jiao. Yes.
    Senator Van Hollen. So, I am looking at a lot of the 
projects that have been funded by DOE, and all of these 
projects for carbon capture, at least at this point in time, 
have required some public financing in order to be economically 
viable, right?
    Mr. Northam. Yes.
    Mr. Friedmann. Yes. Happy to talk more about that, too.
    Mr. Deich. Yes.
    Mr. Jiao. Yes.
    Senator Van Hollen. And the FUTURE Act that was just passed 
is another tax incentive, right? So, I just want to be clear 
with my colleagues; we are spending taxpayer money to reduce 
carbon dioxide, and the only reason I can see for spending 
taxpayer money on doing that is if we have a benefit from 
reducing carbon dioxide. That benefit, as the witnesses have 
said, is trying to address climate change and making sure we 
are well positioned in a global economy where the rest of the 
world recognizes we need to head in that direction.
    As of today, as of today, we are trying to change that; 
what is the cost per ton in terms of the public subsidy to make 
carbon removal economically viable?
    Mr. Friedmann. To ask a clarifying question, are you asking 
what is required or what is it today?
    Senator Van Hollen. What is required today, in terms of a 
public subsidy, to make a carbon capture enterprise 
economically feasible? I mean, the FUTURE Act was part of that, 
right?
    Mr. Friedmann. Yes. So, when I was working in the 
Department of Energy, I worked with the White House and the 
Treasury, and we put forward a specific proposal for something 
about the order of $60 per ton as essentially like a production 
tax credit, along the lines of the FUTURE Act, and we also 
suggested a 30 percent investment tax credit. You need some 
capital treatment as well as some operating treatment.
    Senator Van Hollen. So, you need a public subsidy on both 
pieces there.
    Mr. Friedmann. It is worth noting that that incentive on 
the order of $60 a ton is about the same as the wind production 
tax credit. It is along the lines of other incentives we have 
made for other kinds of clean energy.
    Senator Van Hollen. And you made the important point, Dr. 
Friedmann, all of you said that carbon capture needs to be part 
of the solution to climate change, but Dr. Friedmann, you 
mentioned all the scenarios there. Those scenarios, to make 
sure we are under the 2 percent Celsius, they also require 
reduction in carbon emissions, do they not?
    Mr. Friedmann. That is in fact their primary constraint. 
The scenarios all say we have to stay to a 2 degree world, so 
we have to deeply reduce our carbon dioxide and other 
greenhouse gas emissions.
    Senator Van Hollen. Right. So, I am glad that we are 
spending some public dollars for this public good, to sequester 
carbon and to reduce carbon that is generated, but when you 
look at those models, how much of the reduction has to come, 
Dr. Friedmann, from actually reducing the overall emissions?
    Mr. Friedmann. So, in order to hit a 2 degree target by 
2020, you have to have something on the order of 85 percent 
reduction in greenhouse gas emissions. There are many pathways 
to do that; it requires efficiency improvements, deep 
deployment of renewable power, as well as carbon capture and 
storage.
    Senator Van Hollen. Appreciate it.
    I would just say, Mr. Chairman, to all my colleagues, and 
this is an appeal, what we are doing here is using taxpayer 
dollars for the purpose of helping the market toward carbon 
sequestration, and that is putting a price implicitly on this 
project, and as of today, for quite a smaller price, you can 
actually generate some reductions today. So, I would just hope, 
if we are going to be taking this public policy direction as a 
Committee, that we not look at just this very important piece, 
and it is an important piece, but that we look at everything 
else at the same time.
    I appreciate all of you for being here today, and thank you 
for your efforts in this particular area.
    Senator Barrasso. Thank you, Senator Van Hollen.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    I would just note this at the top. I see that this is a 
bill ultimately that is $25 million that would be going to the 
EPA administrator for Direct Air Capture Technology Advisory 
Board and then another $50 million for the USE IT Act, and I 
just want to stipulate this once again, that back in 2009, in 
the House of Representatives, we passed the Waxman-Markey bill, 
and Henry Waxman and I put in $200 billion for carbon capture 
and sequestration, $200 billion. And the coal industry turned 
it down cold, $200 billion they turned down.
    So here we are now, and they are asking for this money, and 
I step back, and I keep saying to myself you missed your shot; 
it was there. The $200 billion would have done the research, 
would have had the advisory boards, could have given the money 
to each one of the utilities or to oil companies or coal 
companies to be able to do the job, and they said they didn't 
want it. And that is fine, OK, that is a decision they made.
    And again, I am looking at this now, and I am saying, OK, I 
believe in research and I believe in advisory committees, but I 
just think it is important to understand that, again, a vision 
without funding is a hallucination. So, I just don't want 
anyone to get false hope from this, that the magnitude of this 
funding in any way affects the trajectory of this technology; 
it is just not real. We put in a real number based upon what 
all the experts told us in the utility industry to deal with 
it, it was $200 billion, and it was turned down, just 
absolutely, we don't want that money, 2009-2010, by the way, in 
this Committee. No, don't want it.
    So, that is where we are, and again I definitely want to 
make sure that we do the research, but I also want everyone 
here to understand that there is another vision which is taking 
place. There are 109,000 new clean energy jobs in Massachusetts 
that have been created, most of them over the last decade, 
109,000.
    The United States installed 10,000 new megawatts of solar 
last year and 7,000 new megawatts of wind. That is 17,000 new 
megawatts. We now have 89,000 megawatts of wind capacity and 
53,000 megawatts of solar installed in the United States, so 
that is about 140,000 wind and solar megawatts now installed in 
our country and globally, in 2016--in 1 year--globally, 74,000 
new megawatts of solar and 52,000 new megawatts of wind 
capacity were installed. Overall, renewables now represent 55 
percent of all new electrical generating capacity over the past 
10 years, 55 percent, just so we get it all out here on the 
table.
    And again, the $200 billion in the Waxman-Markey bill that 
passed the House of Representatives was turned down over here 
in the Senate. Didn't want the money.
    So, again, I believe in research and am happy to work in a 
bipartisan fashion to support new technologies for our future 
low carbon economy, but I also want to have everyone understand 
where this whole thing is headed. It is all heading in the 
direction that now they realize they need the money.
    Now they say, oh, is there any way you can help us? We 
turned that down, and now what is left over that you can help 
us with that is kind of a penny on the dollar of what was being 
offered just 6 or 7 years ago. And as long as we understand 
that, then I feel better about it.
    So, I guess my concern is, and I would ask you this 
question, Mr. Deich, is they need financing, but we are opening 
up the Clean Air Act here. What is the fear that you might have 
if we open up the Clean Air Act in terms of other changes that 
might take place? On this, I would support it. I just want to 
make that clear, I do support the bill. I just want to put it 
in its total context. But I do have some apprehension about 
whether or not the Clean Air Act then becomes vulnerable for 
other purposes in the course of deliberation.
    Can you give me that answer?
    Mr. Deich. Thank you, Senator. That is something that we 
are very sensitive to. We work closely with environmental 
groups, as well as startups and other investors in this space, 
and recognize that the Clean Air Act has not been amended in 
nearly 30 years at this point.
    And what I think the environmental groups are looking for 
from this Committee is insurance that the bill will move 
forward in a bipartisan way to achieve the spirit that we have 
heard here at this hearing, and not to use it as a way to 
weaken or otherwise erode the foundational environmental law.
    Senator Markey. That is good.
    Do we have that commitment, Mr. Chairman?
    Senator Barrasso. That was in my opening statement.
    Senator Markey. Oh, I am sorry.
    Senator Barrasso. I referred to that, that we are going to 
move forward, Senator Whitehouse and I, in a bipartisan way on 
not allowing----
    Senator Markey. As Senator Inhofe mentioned over in the 
Commerce Committee, there are nine of us on two committees, the 
Commerce Committee and this simultaneously, so he and I have 
been running back and forth.
    Senator Barrasso. Thank you.
    Senator Markey. So, thank you for that statement, Mr. 
Chairman.
    Senator Barrasso. Thank you. Appreciate your questions.
    Senator Markey. Thank you.
    Senator Barrasso. Before turning to Senator Inhofe, I would 
point out that the Clean Air Task Force is writing in support 
of this piece of legislation. I am going to introduce that as 
part of the permanent record. Without objection.
    [The referenced information follows:]
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. I just want, now that this hearing is about 
to be over, to repeat something that I said in my questioning, 
that it is a relief to know that we have come to the point not 
where we were 9 years ago, when the solution was you have to do 
away with fossil fuels, but now we recognize fossil fuels is 
going to be a part of our energy mix, a very important part, 
most likely, at least for the next few years, the same 
percentage as it has been in the past.
    Now, I know that you folks, the response that you gave on 
the science. I know it is still mixed. You guys know it too. I 
always enjoy using the quote from Richard Lindzen, when he 
said, ``Controlling carbon is a bureaucrat's dream. If you 
control carbon, you control life.'' So I would just like to 
hope that we can get beyond this discussion, because it is no 
longer necessary; we now are going to have this as a part of 
our energy mix. For the record, OK?
    Senator Barrasso. For the record, absolutely.
    And to follow up on your statement about the percentage 
being the same, what I have been reading is that 20 years from 
now, with the overall need of increased energy--and we need it 
all--that 20 years from now we will be using a significant more 
amount of coal than we are right now, planet-wise, so that we 
need to come to the solutions involved here.
    I have a number of letters in support of the legislation I 
am going to ask to be made part of the record, but I do want to 
thank all the witnesses for being here. I appreciate your time 
and your testimony. The record is going to be open for a couple 
weeks so that you may get some written questions from some 
other members who weren't able to be here, because there are a 
number of members on multiple committees, and everybody can't 
be at all committees at all times. But I appreciate all of you 
being here.
    With that, the hearing is ended. Thank you.
    [Whereupon, at 11:55 a.m. the Committee was adjourned.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. Tammy Duckworth, 
                U.S. Senator from the State of Illinois

    Climate change is a grave threat to our national security, 
economic security, and environmental health. Across Illinois, 
across our country, and across the globe, we are already 
experiencing the harmful effects of climate change. Growing 
seasons are lengthening, heat waves are increasing, and extreme 
floods are becoming more frequent and severe.
    The United States must act to prioritize cutting carbon 
pollution. Fortunately, reducing carbon emissions will not only 
combat climate change, it holds the potential to strengthen our 
economy, advance new industries, and create new American jobs. 
For example, emerging technological capabilities, such as 
carbon capture, utilization, and storage (CCUS), will play a 
critical role in helping our Nation limit carbon emissions in a 
cost effective manner.
    The Intergovernmental Panel on Climate Change, the world's 
foremost authority on climate change research, noted the cost 
of reducing carbon emissions will be approximately 140 percent 
higher without CCUS. The bottom line is that failing to embrace 
emerging technologies that facilitate net negative emissions 
will endanger the world's ability to limit temperature 
increases to below 2 degrees Celsius per year.
    The bipartisan USE IT Act will help to make sure this does 
not happen. This important legislation will bolster States such 
as Illinois, which are leading in CCUS research and 
development. In addition, the bill promotes investment in low 
carbon technology infrastructure, which is necessary to 
facilitate full adoption of CCUS. I look forward to working 
with my colleagues on this Committee to advance and further 
improve this promising legislation.
    [Additional material submitted for the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                 [all]
</pre></body></html>
